              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report

Follow-up Audit of the National
Nuclear Security Administration's
W76 Nuclear Warhead
Refurbishment Program




DOE/IG-0870                        September 2012
                                  Department of Energy
                                      Washington, DC 20585

                                       September 26, 2012



MEMORANDUM FOR THE SECRETARY



FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: "Follow-up Audit of the National Nuclear Security
                         Administration's W76 Nuclear Warhead Refurbishment Program"

BACKGROUND

The Department of Energy's National Nuclear Security Administration is responsible for
ensuring that the Nation's nuclear weapons stockpile continues to meet National defense
requirements. As part of that effort, NNSA is refurbishing the aging W76 nuclear warhead with
the goal of extending the warhead life by 30 years. However, the W76 Life Extension Program
(LEP) has experienced significant delays in startup and in achieving production goals. By the
end of Fiscal Year 2011, NNSA had completed less than half of the anticipated units due to
technical production issues. NNSA intended to address this problem by increasing production
rates in future years.

Delays encountered thus far have significantly increased the risk that the W76 LEP and follow-
on weapon refurbishments cannot be accomplished in time to meet commitments to the
Department of Defense. These commitments require that NNSA conclude the W76 LEP by
FY 2018, effectively allowing only 7 years to complete the 85 percent of refurbishments
remaining; therefore, any delays have downstream implications. Until the W76 LEP is
completed, NNSA cannot meet the scheduled FY 2018 start date for refurbishment of the B61
bomb that is needed to meet United States' commitments to the North Atlantic Treaty
Organization. As noted by an NNSA official, facility limitations preclude beginning work on the
B61 LEP until the W76 LEP is complete. NNSA has stated that finding ways to reduce the cost
of the W76 LEP is a priority. Accordingly, one of NNSA's High Priority Performance Goals
since 2007 has been to reduce the W76 production cost on a per unit basis.

In our 2006 report, W76 Life Extension Project (DOE/IG-0729, May 2006), the Office of
Inspector General reported that NNSA was at risk of not achieving the first production unit for
the W76 refurbishment by the end of FY 2007 within the established scope, schedule and cost
parameters. Given the additional delays and the importance of the LEP, we initiated this follow-
up audit to take a fresh look at the status of NNSA's W76 LEP, focusing on NNSA's ability to
reduce unit costs.

CONCLUSIONS AND OBSERVATIONS

NNSA may be unable to complete the W76 LEP within established scope, cost and schedule
parameters, unless it adopts a more effective approach to reducing unit costs. This concern is
exacerbated by the fact that the Program is faced with a relatively flat budget over the next few
years, even though its annual scope of work is projected to increase significantly. The Program's
budget increases for Fiscal Years 2013 and 2014, for example, are projected to be only 2.9
percent in each year more than FY 2011 levels. The Program's production schedule, however,
shows production increasing 59 percent during the same period. The increase in production
appears to be unsustainable given the projected funding. The goal of reducing the unit cost of
W76 LEP production appeared to be one of the only paths to keeping the Program on track
without adversely affecting other NNSA programs. Although a senior NNSA official expressed
confidence that NNSA would achieve the increased production rates within the out-year budget
estimates, Program officials could not provide plans detailing actions necessary to achieve the
needed cost reductions.

                                    Cost Reduction Challenge

Based on the FY 2012 approved budget, NNSA may not realize the per unit cost savings
necessary to complete the W76 LEP within established scope, cost and schedule parameters. To
meet its scope and schedule commitments within a relatively flat budget, NNSA must reduce the
annual cost per unit by 35 percent by FY 2014. However, as shown in the following table,
NNSA's own weapons design and production facilities responsible for completing the LEP
estimated that they can realize only a 25 percent cost per unit savings by FY 2014.


                                Budgeted Cost per Unit
                                      (all dollars in millions)

                           Annual/          Increase in       Cost per Unit   Cost per Unit
         Fiscal Year       Proposed        Budget from          Savings         Savings
           Budget           Budget            FY 11             Needed         Projected
            2011*            $248
            2012             $257              3.7%               15%              5%
            2013             $255              2.9%               28%             13%
            2014             $255              2.9%               35%             25%
            2015             $255              2.9%               35%             21%
            2016             $260              4.9%               34%             24%
       *Actual costs


We could not satisfactorily reconcile the need to reduce unit costs by 35 percent to meet cost
considerations with the assertions of the weapons facilities that estimated a 25 percent reduction
was the best they could anticipate.

Reducing costs below the projected levels may be difficult because many elements in the cost
composition estimate are outside of NNSA's control. For example:

   •   NNSA's Kansas City Plant will be moving its W76 LEP production to a new facility,
       requiring relocation activities that may add $19 million to the Program's total cost;

   •   NNSA sites estimated that efforts to resolve technical production issues would cost an
       additional $10 million; and,

                                                 2
   •   Contractor pension cost increases included in the estimates added approximately $10
       million to the W76 LEP costs in FY 2012, according to an NNSA official. NNSA was
       unsure of pension cost impacts to the Program beyond FY 2012. Yet, pension projections
       for NNSA show that total pension costs throughout the entire enterprise are expected to
       remain at FY 2012 levels or higher through FY 2016.

If NNSA is not able to lower unit costs below current projections, the W76 LEP will face large
cost overruns. In fact, the weapons design and production sites estimated that, collectively,
FY 2012 and FY 2013 costs would be $86 million greater than the estimates for those years as
found in NNSA's FY 2012 budget. This is illustrated in the following chart.


                          Projected Cost vs. FY2012 Budget
                                           (all dollars in millions)
                   Fiscal Year        Site Projected        Budgeted   Cost Savings
                     Budget                Cost               Funds      Needed
                      2011*                $248                $248
                      2012                 $288                $257       $31
                      2013                 $310                $255       $55
                      2014                 $295                $255       $40
                      2015                 $311                $255       $56
                      2016                 $299                $260       $39
                      Total               $1,751              $1,530      $221
                 *actual costs and budget


Further, as noted, there was a total gap of $221 million from FY 2012 costs through FY 2016
costs submitted by the sites to meet Program requirements and the out-year budget projection
contained in the FY 2012 Congressional Budget Request.

NNSA Program officials pointed out that unit cost estimates have been and will continue to be
affected by changes in production requirements and volatility in available funding. For example,
the FY 2013 Congressional Budget showed funding levels reduced by one third from the prior
year to approximately $175 million. NNSA also noted that the planned production rate for the
W76 LEP had decreased by one third from that planned in FY 2011. While recognizing the
impact of changes in production rates and funding, Program officials agreed that our analysis
was generally consistent with NNSA's own internal concerns about meeting W76 goals within
budget constraints.

                                   Quantified Cost Savings Measures

NNSA Stockpile Management officials expressed confidence that the Program can achieve the
increased production rates within the FY 2012 Congressional Budget Request estimates. Yet,
Program officials could not provide plans detailing the specific actions needed to achieve
necessary cost reductions. Beginning in its FY 2007 performance measure report, NNSA
committed to reducing its projected production unit cost, specifically to reducing the project by a
cumulative 2 percent in unit cost by FY 2010. But, it actually achieved less than a 1 percent
reduction. During this time period, the Program experienced cost increases due to unanticipated
                                                     3
technical production issues and increased contractor healthcare and compensation expenses. As
a result, NNSA was unable to meet its self-imposed cost reduction targets. NNSA performance
measure reports reflect that future cost efficiencies in the remaining years of production would
be needed to offset cost increases. However, NNSA did not specifically identify the steps
necessary to achieve the essential cost reductions.

NNSA established a Cost Control Board for the W76 LEP. A Program official stated that the
Cost Control Board, which is jointly chaired by NNSA and the Department of the Navy and
includes both Federal and contractor personnel, set cost targets and solicited cost reduction
measures from the sites. For instance, NNSA's Kansas City Plant identified over $18 million in
approved cost savings measures between FY 2007 and FY 2011. Beyond those identified
through 2011, Program officials were unable to provide us with a list of the cost reduction
initiatives necessary to address the $221 million gap between the weapons design and production
site estimates and the budget. While individual NNSA facilities had identified some site specific
cost savings, NNSA had not created a forward-looking plan to reduce costs Program-wide,
enabling the Program to absorb or mitigate increased costs resulting from increased production
levels, the relocation of the Kansas City Plant, technical production issues, and pension payment
increases .

Senior NNSA officials asserted that they would reallocate funds from other weapons programs if
they were unable to achieve W76 cost reductions. However, NNSA had not determined the
sources and extent of reallocated funds or the impact on programs providing such funds.

W76 LEP Program officials expressed their disagreement with our methodology for calculating
unit cost. In particular, they stated that we overestimated annual unit costs by including costs
that were not directly related to production in each year, such as pension costs. However, we
concluded that inclusion of these costs better illustrated the overall cost challenges facing the
Program and was consistent with how the Program reports cost performance to Congress. In
general, officials agreed that our analysis, including the risks going forward, were consistent with
NNSA's concerns about Program execution in future years.

                                           Best Practice

Had NNSA made full use of available performance management tools, it might be in a better
position to measure the overall effectiveness of the W76 LEP. Program officials told us that they
consider Earned Value Management Systems (EVMS) to be a best practice. NNSA used EVMS
to measure each site's performance against current year budget authority and workload
requirements. However, NNSA did not use EVMS to measure the overall performance of the
W76 LEP Program. NNSA officials explained that they did not use the EVMS as a forward-
looking tool for Program-wide planning purposes because of production issues and uncertainties
about the Program's ultimate scope and budget. As a result, NNSA could not measure actual
Program cost performance against planned cost performance in order to identify needed changes
to cost reduction strategies. Although a Program-wide EVMS has not yet been implemented, a
W76 LEP official told us that NNSA plans to use EVMS at the Program level in future years.




                                                 4
                                       W76 LEP Impacts

Delays in completing the W76 LEP within planned scope, cost and schedule could have national
security implications. If NNSA is unable to achieve the cost per unit reductions necessary to
meet the W76 LEP's planned production requirements, it will require additional funding, a
reduction in scope, or a delay in production. Delays in completing the W76 LEP within
schedule, for instance, could prevent NNSA from beginning full production of the B61 bomb
refurbishment to meet existing United States' commitments.

RECOMMENDATIONS

Given current widespread calls for dramatic reductions in Federal spending, NNSA may be faced
with future budget reductions. We noted that possible decreases in budget would require NNSA
to reduce unit production costs even beyond those discussed in our report.

To assist NNSA in meeting its goals within available budgets, we recommend that the
Administrator, NNSA, ensure that the W76 LEP:

   1. Develops a forward-looking plan to reduce costs Program-wide to meet planned
      production rates within budget; and,

   2. Implements and utilizes a Program-wide EVMS that quantifies required scope, schedule
      and cost performance through the end of the Program.

MANAGEMENT COMMENTS

Management agreed that additional adjustments to W76 plans will be required to maintain the
Program within budget constraints. While it believed that it had the focus and necessary tools to
ensure success of the W76 LEP, management agreed to develop a forward-looking plan to help
meet W76 goals. Management stated that NNSA will tailor the EVMS methodology and
implementation, which are primarily focused on construction activities, for application to
weapons production activities.

Management did take exception to the methodology we used to calculate unit cost but stated it
will consider the audit's analysis and develop a plan based on the methodologies determined to
be most appropriate. Management also noted that some data used in the "Budgeted Cost per
Unit" chart was outdated. Specifically, management noted that the W76 rate of production had
decreased by one third from FY 2011 requirements. Management acknowledged that the
numbers used in the "Budgeted Cost per Unit" chart were volatile and that any data used may be
outdated prior to issuance of our report. Management also took exception with how the costs
associated with the Kansas City Plant's move to a new facility were reported.

Management's response and technical comments, which provide clarifications regarding NNSA's
planned methodologies for implementing the recommendations, are included in Attachment 3 of
this report.



                                                5
AUDITOR COMMENTS

Management's proposed corrective actions are responsive to our recommendations. Although
NNSA officials disagreed with our methodology for calculating unit cost, they agreed that our
analysis was consistent with NNSA's concerns about meeting W76 goals within budget
constraints. As previously noted, management believed that we overestimated annual unit costs
by including costs that were not directly related to production in each year, such as pension costs.
However, we concluded that inclusion of these costs better illustrated the overall cost challenges
facing the Program and was consistent with how the Program reports cost performance to
Congress.

We acknowledge that Program requirements are changing and remain volatile. Our analyses
were based on Program requirements that were in place as of the FY 2012 approved budget. We
noted that proposed reductions in production and funding are likely to make it more difficult for
the Program to meet its cost per unit requirements because fixed costs that are unlikely to
decrease will have to be allocated over fewer produced units. Nonetheless, our report reflects
management's concerns regarding Program requirement and funding volatility. Regarding
management's concerns with the costs associated with moving the Kansas City Plant to a new
facility, we met with NNSA Program officials and provided documentation for how we arrived
at the costs reported. They agreed with our analysis; however, consistent with NNSA's concerns,
the audit report clarifies our position regarding these costs.

We appreciate management's recognition that forward-looking plans should be developed and
EVMS principles should be implemented to help ensure W76 LEP goals are met.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff




                                                 6
                                                                                 Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to determine whether the National Nuclear Security
Administration (NNSA) is completing the W76 refurbishment within the established cost, scope
and schedule parameters.

SCOPE

We conducted the audit from September 2010 to August 2012 at the NNSA Headquarters in
Washington, DC; NNSA Albuquerque Complex in Albuquerque, New Mexico; the Pantex Plant
and the Pantex Site Office in Amarillo, Texas; the Y-12 National Security Complex and the Y-12
Site Office in Oak Ridge, Tennessee; Los Alamos National Laboratory in Los Alamos, New
Mexico; the Kansas City Plant and Kansas City Site Office in Kansas City, Missouri; and Sandia
National Laboratories in Albuquerque, New Mexico. The scope of the audit was limited to W76
refurbishment activities from September 2008 (first production unit) through the end of the
Program.

METHODOLOGY

To accomplish the audit objective, we:

     •   Identified the W76 refurbishment technical scope, scheduled milestones, budget and
         cost;

     •   Reviewed applicable Department of Energy (Department) Orders, Federal laws and
         regulations, internal policies and related prior reports;

     •   Assessed compliance with the GPRA Modernization Act of 2010;

     •   Analyzed the status of the project and contractors' performance;

     •   Interviewed key Department and contractor personnel;

     •   Reviewed current Program management reports; and,

     •   Reviewed results of prior audits and reviews.

This audit was conducted in accordance with generally accepted Government auditing standards
for performance audits and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. The Department established
performance measures regarding the W76 Life Extension Program as required by the GPRA
Modernization Act of 2010. Because our review was limited, it would not necessarily have



                                               7
                                                                         Attachment 1 (continued)



disclosed all internal control deficiencies that may have existed at the time of our audit. We did
not conduct a reliability assessment of computer-processed data because we did not rely on
computer-processed information to achieve our audit objective.

Management waived an exit conference.




                                                 8
                                                                                   Attachment 2


                                    RELATED REPORTS

Office of Inspector General Reports

   •   W76 Life Extension Project (DOE/IG-0729, May 2006). This report found that the
       National Nuclear Security Administration (NNSA) is at risk of not achieving first
       production unit for the W76 refurbishment within the established scope, schedule and
       cost parameters. Specifically, there were delays in completing tests and other milestones,
       reductions in design scope, unexplained cost variances, and incomplete documentation of
       program baseline changes. These delays and scope deviations were caused by project
       management shortcomings, including delayed project planning and a failure to link site
       schedules with the overall project schedule.

   •   NNSA's Refurbishment of the B61 (DOE/IG-0697, August 2005). The audit report
       disclosed that NNSA was at risk of not achieving the first production unit for the B61
       refurbishment within the original schedule and scope specifications and it did not have a
       valid estimate of total refurbishment costs. NNSA's project planning and management
       processes were not adequate to ensure refurbishment completion in accordance with the
       original parameters.

   •   Refurbishment of the W80 – Weapon Type (DOE/IG-0590, March 2003). The audit
       found that project milestones were frequently changed or delayed, and delays in one
       activity caused delays or cancellations of subsequent activities. The Project Plan was
       poorly maintained because there was not one manager overseeing the entire
       refurbishment process.

Government Accountability Office Reports

   •   NNSA and DOD Need to More Effectively Manage the Stockpile Life Extension Program
       (GAO-09-385, March 2009). This report identified challenges that could potentially
       cause schedule delays or cost overruns in the W76 Life Extension Program. Specifically,
       the Program experienced technical issues producing required materials, the Program
       experienced delays in the construction of production facilities, and fluctuations in
       Program baselines made it difficult to track or project total Program costs.

   •   Improved Management Needed to Implement Stockpile Stewardship Program Effectively
       (GAO-01-48, December 2000). This audit found that poor project management caused
       NNSA to be unable to predict and plan for problems that ultimately led to cost overruns
       and schedule delays. Specifically, the Kansas City Plant had difficulties restarting
       operations, the Y-12 National Security Complex and the Pantex Plant experienced safety
       problems, and the aggressive schedule caused inexperienced technicians at the Pantex to
       damage detonators when installing them.




                                               9
                      Attachment 3



MANAGEMENT COMMENTS




        10
     Attachment 3 (continued)




11
     Attachment 3 (continued)




12
                                                                    IG Report No. DOE/IG-0870

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
